Memorandum from the Office of the Inspector General



June 2, 2010

Jeffrey T. Parsley, EB 3G-C
Daniel A. Traynor, SP 5A-C

FINAL REPORT – INSPECTION 2008-11829 – REVIEW OF TVA'S RECORDS
RETENTION



Attached is the subject final report for your review and action. Your written comments,
which addressed your management decision and actions planned or taken, have been
included in the report. Please notify us when final action is complete.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have any questions, please contact Kristin S. Leach, Auditor, at (423) 785-4818 or
Gregory C. Jaynes, Deputy Assistant Inspector General, Inspections, at (423) 785-4810.
We appreciate the courtesy and cooperation received from your staff during this review.




Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

KSL:NLR
Attachment
cc (Attachment):
      Steven A. Anderson, SP 5A-C                     David R. Mould, WT 7B-K
      Ricky L. Eason, EB 3E-C                         Mary E. Ragland, EB 5B-C
      Peyton T. Hairston, Jr., WT 7B-K                Emily J. Reynolds, OCP-1L-NST
      Janet C. Herrin, WT 10D-K                       Joyce L. Shaffer, WT 9B-K
      Tom D. Kilgore, WT 7B-K                         Robert B. Wells, WT 9B-K
      Richard W. Moore, ET 4C-K                       OIG File No. 2008-11829
                 Tennessee Valley Authority
                 Office of the Inspector General
     

    Inspection Report
         



                                                      

                                                      

     

     

     

     

REVIEW OF TVA’S
     



RECORDS RETENTION
 



     




     

     
     
     

     
                            Inspection 2008-11829
                                      June 2, 2010



                                 . 
Office of the Inspector General                                                               Inspection Report




TABLE OF CONTENTS
EXECUTIVE HIGHLIGHTS ............................................................................ i

BACKGROUND................................................................................................ 1

OBJECTIVES, SCOPE, AND METHODOLOGY ..................................... 2

FINDINGS AND RECOMENDATIONS....................................................... 3

   COMPLIANCE WITH POLICIES AND PROCEDURES ................................... 4

   OPPORTUNITIES TO IMPROVE RECORDS RETENTION
   AND DISPOSAL ............................................................................................... 5

   OTHER OBSERVATIONS ................................................................................ 8

RECOMMENDATIONS ................................................................................ 12


APPENDIX
MEMORANDUM DATED MAY 26, 2010, FROM DANIEL A. TRAYNOR AND
JEFFREY T. PARSLEY TO ROBERT E. MARTIN




Inspection 2008-11829
                      TVA Office of                                June 2010
                      the Inspector                                Inspection 2008-11829
                      General                                      Review of TVA Records Retention


Why the OIG Did This Review                                        What the OIG Found
At the request of the Chief Executive Officer, we initiated a      Our review found TVA complied with TVA records
review of records retention policies and practices at TVA.         management policies, practices, and procedures, and
Our review was later postponed due to the Kingston Ash             records identified in sampling were generally maintained in
Spill.                                                             accordance with the National Archives and Records
                                                                   Administration-approved record schedules. We did note
As a federal agency, TVA is responsible for ensuring that          some areas where compliance could be strengthened.
any information providing official documentation of TVA
programs and activities is identified, maintained, stored, and     In addition, while we found that TVA plans to replace its
disposed of as required by law.                                    current electronic management system which should
                                                                   increase the efficiency and effectiveness of records
The objectives of our review were to determine (1) whether         management, areas for improvement exist in the
records are being maintained in accordance with TVA                Chattanooga Office Complex pertaining to (1) records
policies and procedures and (2) if opportunities exist to          management, (2) records retention, (3) disposal of records
improve records retention and disposal activities in light of      and material, (4) the maintenance and upkeep of office
office space consolidation initiatives.                            space, and (5) the identification of records.
                                                                   Specifically:
What the OIG Recommends
                                                                      Business Units were keeping record material in
We recommend TVA's Vice President and Chief Information                hard-copy format with long retention times that could
Officer, Information Services, in conjunction with the Vice            possibly be kept more efficiently off-site or in electronic
President of Facilities Management, (1) continue current               format. In addition, nonrecord material was often kept
plans to replace EDMS (Electronic Document Management                  beyond its useful life.
System) with a new system that has more user-friendly
search and retrieval functions; (2) provide guidance on the           TVA's current document management system hampers
format for retention of records, taking into account records           electronic record retention and disposal due to its limited
retention times; (3) implement further cleanup initiatives             capabilities and information technology structure.
when feasible, including the identification, review, and proper
disposition of unknown records and materials; and (4) re-             Organizations were sometimes unaware of the content
emphasize the importance of safe-guarding personally                   of files and boxes, many work areas in the Chattanooga
identifiable information.                                              Office Complex were cluttered and disorganized and
                                                                       contained unauthorized items, and unlocked cabinets
The Vice President and Chief Information Officer,                      contained personally identifiable information.
Information Services, in conjunction with the Vice President
of Facilities Management, provided comments on this report.
Management agreed with our recommendations and plans
to take corrective actions. We agree with management's
planned actions to address our recommendations.




For more information, please contact Robert E. Martin, Assistant
Inspector General, Audits and Inspections, at (865) 633-7450 or
remartin@tvaoig.gov; or Gregory C. Jaynes, Deputy Assistant
Inspector General, Inspections, at (423) 785-4810 or
gcjaynes@tvaoig.gov.

                                                                                                                         Page i
Office of the Inspector General                                                            Inspection Report


BACKGROUND
Tennessee Valley Authority's (TVA) Records Management Program is a
conducted pursuant to guidance issued by the National Archives and Records
Administration.1 TVA is required by 44 U.S.C. § 3101 to "prepare and preserve
records containing adequate and proper documentation of the organization,
functions, policies, decisions, procedures and essential transactions of the
agency and designed to furnish the information necessary to protect the legal
and financial rights of the government and of persons directly affected by the
agency's activities." As a federal agency, TVA is responsible for ensuring that
any information providing official documentation of TVA programs and activities
is identified, maintained, stored, and disposed of as required by law.

TVA has two key practices and procedures that apply to records management:

      Communication Practice 6, Records and Document Management,2 formally
       documents the establishment of TVA's records and document management
       program. Specifically, the program requires "appropriate records are
       acquired, maintained, distributed or preserved as directed by applicable
       federal laws, regulations and directives to preserve the history of the United
       States and TVA."
      Document Services Procedure 1, Records Management,3 "establishes
       controls for managing records generated or collected for TVA activities."

According to Document Services Procedure 1, a TVA record "is any book, paper,
map, photograph, machine readable material, or other documentary material,
regardless of physical form, method of creation or characteristics, made or
received by TVA which may be used as evidence of an organization's functions,
policies, decisions, procedures, or operations." This procedure does not apply to
nonrecord material; that is, an individual's work-related materials that were not
circulated for formal approval, comment, or action; and which can be disposed of
at the individual's discretion. Additionally, Information Services has work
instructions which apply to records handling and the Electronic Document
Management System (EDMS), which is TVA's electronic record repository.

The Vice President and Chief Information Officer, Information Services, is the
designated records and documents management official for TVA and the primary
sponsor for TVA's records and document management programs. The Electronic
Document Management (EDM) group is part of Information Services. The Board

                                                            
1
    The National Archives and Records Administration is an independent federal agency, designated as
    America's national record keeper. The National Archives and Records Administration's mission is to
    ensure, for the citizen and the public servant, for the President, and for the Congress and the Courts,
    ready access to essential information.
2
    Communication Practice 6, Records and Document Management, superseded TVA Standard Policy and
    Procedure – 31.0, Record and Document Management Program.
3
    Document Services Procedure 1, Records Management, superseded TVA Standard Policy and
    Procedure – 31.1, Records Management.
Inspection 2008-11829                                                                                Page 1
Office of the Inspector General                                                         Inspection Report


of Directors has delegated oversight of TVA's records and information
management responsibility to EDM.

EDM, in conjunction with Strategic Business Units (SBU), maintains TVA's
Comprehensive Records Schedules (CRS) which document information on
records for both TVA common records and SBU specific records. CRSs contain
a listing of TVA records along with the corresponding disposition that has been
approved by the National Archives and Records Administration. These
dispositions are mandatory unless TVA requests a revision from the National
Archives and Records Administration. Per the EDM Glossary, disposition is
defined as "the actions taken with regard to records following their appraisal.4
The actions include transfer to a records center for temporary storage, transfer to
an archival agency, donation to an eligible repository, image reproduction, or
destruction." EDM shall maintain a TVA Records Common CRS which
documents information on records that are common to one or more TVA
organizations. An organization's CRS shall be developed to categorize and
manage identified records, meet minimum requirements established by the TVA
CRS process, and be modified by EDM with input from the organization's
Records Liaison.5 According to Document Services Procedure 1, Records
Management, the CRS "shall communicate a uniform, documented retention
schedule, and ensure the final disposition of each record series is appropriate."

TVA's electronic records repository is EDMS. Records submitted to EDMS
should be listed in a TVA CRS. An organization may use the Business Support
Library6 to automatically transfer electronic files into EDMS once the documents
are finalized and become a record. EDMS is 12 years old and is no longer
supported by the vendor. EDM management personnel told us that TVA plans to
replace its current electronic document management system with a new one
intended to increase the efficiency and effectiveness of records management.
TVA has developed an Enterprise Content Management team that has issued a
Request for Proposal for the new document management system to replace
EDMS.

OBJECTIVES, SCOPE, AND METHODOLOGY
This review was initiated at the request of the Chief Executive Officer. The
objectives of our review were to determine (1) whether records are being
maintained in accordance with TVA policies and procedures and (2) if
opportunities exist to improve records retention and disposal activities in light of
office space consolidation initiatives.



                                                            
4
    Appraisal is the process used to determine if records are temporary or permanent.
5
    The Records Liaison shall work with EDM to facilitate TVA's records management program within their
    organization, ensure compliance and consistency, coordinate recordkeeping activities, and schedule
    organizational records for retention or deposition.
6
    The Business Support Library, which is a document management system, stores nonrecord documents.
Inspection 2008-11829                                                                             Page 2
Office of the Inspector General                                                  Inspection Report


To achieve our objectives, we:

      Interviewed key TVA personnel including SBU Records Liaisons and EDM
       personnel to determine (1) how records are being maintained at TVA, (2) if
       prescribed policies and procedures are being followed, and (3) if opportunities
       exist to improve records retention and disposal.
      Performed walkdowns of the TVA Chattanooga, Nashville, and Knoxville
       Office Complexes to (1) identify and observe areas where hard-copy records
       are stored and (2) review the types of documents stored in selected areas.
      Reviewed TVA policies, procedures, and other applicable documents to
       determine what requirements apply to TVA records retention and
       management.
      Performed a walkdown of the EDMS site where hard-copy records are
       converted to electronic records and interviewed applicable EDMS personnel
       to determine (1) the process followed for conversion of hard-copy records,
       (2) whether a backlog of records exist, and (3) how hard-copy records are
       maintained and/or tracked while in the possession of EDM.
      Performed walkdowns of off-site records storage facilities including the
       Knoxville Records Center and the Federal Records Center in Ellenwood,
       Georgia, to (1) identify areas where hard-copy records are stored and
       (2) review the types of documents stored in selected areas.
      Judgmentally7 selected records for review and assessed compliance with
       CRS provisions pertaining to document retention and disposition.

The scope of our review included the TVA Chattanooga, Nashville, and Knoxville
Office Complexes' records. This review was conducted in accordance with the
"Quality Standards for Inspections."

FINDINGS AND RECOMMENDATIONS
During our review, we found TVA was in compliance with TVA records
management policies, practices, and procedures. Records identified in sampling
were maintained in accordance with the National Archives and Records
Administration-approved record schedules. Specifically, we found TVA was in
compliance with Communication Practice 6, Records and Document
Management, in that a program has been developed and individual SBU CRSs
have been created to document appropriate records retention. Additionally, we
found that documentation shows compliance with Document Services
Procedure 1, Records Management.

However, we did note some areas where compliance could be strengthened.
While TVA's plans to replace its current electronic management system should
increase the efficiency and effectiveness of records management, areas for
                                                            
7
    Sample was not chosen statistically and cannot be used to project results.
Inspection 2008-11829                                                                      Page 3
Office of the Inspector General                                       Inspection Report


improvement exist in the Chattanooga Office Complex pertaining to (1) records
management, (2) records retention, (3) disposal of records and material, (4) the
identification of records, and (5) the maintenance and upkeep of office space.

COMPLIANCE WITH POLICIES AND PROCEDURES
We found TVA was in compliance with Communication Practice 6, Records and
Document Management. TVA has developed a records and document
management program, and individual SBU CRSs have been created to
document appropriate records retention. In addition, the documentation we
reviewed shows compliance with Document Services Procedure 1, Records
Management. Specifically:

   CRSs for organizational records were created, maintained, and modified by
    EDM with input from Records Liaisons as required. In addition, as required, a
    TVA Records Common CRS was maintained and modified by EDM for
    records that were common to one or more TVA organizations.
   Records Liaisons were complying with the annual self-assessment
    requirement. EDM and organizations are required to perform annual self-
    assessments which are to include a review of electronic and hard-copy
    records.

As noted above, we did identify some records management improvement
opportunities. Specifically:

   CRSs could be updated/adjusted to reflect recent reorganizations in TVA to
    allow better utilization of records schedules. Currently, the records pertaining
    to an organization may be noted on multiple organizational records
    schedules. We were told by EDM personnel that they are working toward
    replacing organizational CRSs with flexible schedules.
   Interviews with Records Liaisons found there was confusion pertaining to
    what constitutes a self-assessment, and 5 of the 19 Records Liaisons
    interviewed stated they were not involved with annual self-assessments.

To further assess organizational application of the policies, we judgmentally
sampled 62 items. In summary, we found no issues for 51 items:

   Twenty-three items were nonrecord material (i.e., working files, duplicate
    copies of TVA records, project files, and other items) where no record
    retention policies apply.
   Twenty-eight items were TVA records where (1) twenty-two were identified as
    TVA records within the respective retention period, (2) three were being kept
    while the minimum retention period had been met, and (3) three were
    assigned a designated discretionary retention period.


Inspection 2008-11829                                                            Page 4
Office of the Inspector General                                       Inspection Report


However, our review of the remaining 11 items found the identification and/or
documentation of TVA records could be improved. Specifically, we identified four
items that according to TVA personnel needed to be retained; however, this
requirement to retain them could not be verified in the CRSs. We also identified
seven other items that included reel-to-reel tapes marked for retention, but for
which no one could identify the content, and files and boxes containing
documents that could not be readily identified as record or nonrecord material.

OPPORTUNITIES TO IMPROVE RECORDS RETENTION AND
DISPOSAL
In addition to assessing compliance with TVA policies and procedures, we also
looked more broadly at potential ways to improve records retention and disposal
in light of TVA office space consolidation initiatives. We did identify some
opportunities to improve records retention and disposal, specifically pertaining to
the Chattanooga Office Complex. In the following pages, we discuss
opportunities to improve hard-copy storage and retention and electronic storage.
We also discuss various other observations.

Physical/Hard-Copy Storage and Retention
During walkdowns with Records Liaisons and procedure and compliance testing,
we found hard-copy records with long retention times maintained within the
Chattanooga Office Complex. Depending on how frequently these records are
used, they may be better maintained either electronically or in off-site storage.
For example, we found a large volume of:

   Records pertaining to power plants and assets which are to be retained for
    the life of the asset and or agency. These records include vendor manuals,
    plant project maintenance records, engineering drawings, quality assurance
    records, and dam safety records. In some cases these records have been in
    existence since the 1930s. These records may not be needed for day-to-day
    operations or reference.
   Medical records with a retention time of 40 years after employee termination
    are maintained in hard-copy format only. It was noted that sprinklers are
    used for fire protection in the designated storage area for occupational health
    and safety medical records. These records are not backed up electronically
    and are the only existing copy. Additionally, x-rays are being stored in a
    nonclimate-controlled facility which could lead to degradation of the x-rays.

We also found nonrecord material is often kept beyond its useful life. Nonrecord
material is not required to be retained for a specific time period and in some
cases was explained as being current working files. Other non-record material
was explained as being non-current working files or non-record material where
the reason for retention could not be explained. In some cases, TVA personnel
acknowledged that the documents could be disposed of but stated they had not
had the time available to review filing areas and to determine which documents

Inspection 2008-11829                                                           Page 5
Office of the Inspector General                                               Inspection Report


should be kept. Specific examples of nonrecord material noted during
walkdowns included:

      Franklin Covey planners dating back to 1993.
      Noncurrent meeting notes.
      Certificates of appreciation for current employees stacked in file cabinets.
      Copies of Financial Accounting Standards Board statements which are
       available on-line.

As discussed below, TVA did initiate a cleanup initiative which based on our
observations during a subsequent walkdown8 of the Chattanooga Office Complex
reduced some of the nonrecord material.

For example, Figure 1 below shows Franklin Covey planners belonging to an
employee found during our initial walkdown of the Chattanooga Office Complex.
Figure 2 shows shelves that house only two empty Franklin Covey notebook
folders for the same employee that were noted during our second walkdown.

                                                               Figure 1




                                                               Figure 2




                                                                           
 




                                                            
8
    A second walkdown was conducted after the initiatives began.
Inspection 2008-11829                                                                   Page 6
Office of the Inspector General                                      Inspection Report


Electronic Storage
On October 16, 2009, a request for proposal was issued by TVA's Enterprise
Content Management Team to replace the current document management
system which is EDMS. EDMS is currently 12 years old and is no longer
supported by the vendor. TVA management acknowledges that the current
document management system hampers records retention and disposal due to
its limited capabilities and information technology structure. With its new system,
TVA is looking to provide intuitive search and retrieval of content across the
agency to improve user productivity. TVA has basically made "patches" to
EDMS over recent years to meet some of the needs for electronic document
management, however, further enhancements/maintenance are deemed as not a
good business decision, and TVA is planning system replacement.

TVA employees acknowledged in interviews that a system viewed by employees
as user-friendly may be utilized more than the current EDMS system.
Employees stated document retrieval and searching could be more user-friendly
if it were similar to Web-based search engines. While we found some SBUs
dispose of hard-copy records when scanned into EDMS, other organizations
often keep a duplicate hard copy. One SBU told us that it maintains
approximately 200,000 hard-copy drawings, many of which are also entered into
EDMS. SBUs are not disposing of hard-copy documents after conversion into
electronic form due to a lack of confidence in EDMS and other difficulties.
Specific reasons cited for maintaining a hard copy in addition to the electronic
version included:

   Difficulty in searching and retrieving documents in EDMS. Many employees
    view the process of searching and retrieving documents in EDMS as
    cumbersome.
   Low confidence in the completeness of document searches. Employees are
    not confident that a search in EDMS would produce all relevant documents
    needed for working on a project or contract, whereas they are confident in
    hard-copy files.

In 2008, a significant backlog of records to be scanned into EDMS existed.
Contributing factors to the backlog cited by the SBUs and EDM included
(1) EDMS user-friendliness, (2) the volume of records, and (3) a lack of
resources to scan all hard-copy records into electronic format. We were recently
told by Records Liaisons and EDM personnel that while a backlog remains, it has
been reduced. Some organizations have addressed the resource issue by hiring
temporary or intern employees to scan and organize documents for EDMS.




Inspection 2008-11829                                                          Page 7
Office of the Inspector General                                        Inspection Report


OTHER OBSERVATIONS
In addition to identifying records that possibly could be kept more efficiently off-
site or in electronic format and determining that the TVA document management
system hampers electronic record retention and disposal, we found:

   TVA personnel were unaware of the content of some boxes and files and had
    not yet evaluated contents for record or nonrecord status or existence in
    EDMS.
   Many Chattanooga work areas were cluttered and disorganized and
    contained unauthorized items.
   Unlocked filing cabinets containing employee personally identifiable
    information.

Identification of Records
One of the key issues noted in our review was that in some cases Chattanooga
TVA personnel were unaware of the content of boxes and files and had not yet
evaluated contents for record or nonrecord status or inclusion in EDMS. For
example, as noted in the finding related to compliance with policies and
procedures, we noted specific instances where reel-to-reel tapes, files, and
boxes of documents had not been evaluated for record storage, retention, and/or
disposal. According to TVA personnel, the information belonged to former
departmental employees. When an employee leaves TVA and/or the
department, that employee's working documents are then transferred to another
employee within the department. Review and identification of these documents
was not a priority to the recipient.

We found during walkdowns of filing space and interviews with TVA Facility and
SBU personnel that the Chattanooga Office Complex maintains a larger amount
of filing space for record and non-record hard-copy documents when compared
to the Knoxville and Nashville Office Complexes. We observed that the Nashville
and Knoxville Office Complexes appeared more organized and less cluttered
than the Chattanooga Office Complex. We did note that the Knoxville and
Nashville offices have been consolidated within the last three to five years and
have participated in cleanup initiatives. An initiative to clean up the Chattanooga
Office Complex was initiated in December 2008, and while progress was initially
being made, the Kingston Ash Spill impacted record and material identification,
storage, and disposal initiatives.

Cluttered and Disorganized Office Space and Unauthorized Items
In our original walkdown of the Chattanooga Office Complex, we found filing
areas, storage areas, passageways, and work areas that were cluttered and
disorganized. For example, in multiple hallways, we noted document-filled boxes
on top of filing cabinets, on the floor, or along walls. However, in our subsequent
walkdown, there appeared to be fewer boxes located on top of filing cabinets, on
the floor, or along walls in passageways. We still noted many documents, files,

Inspection 2008-11829                                                            Page 8
Office of the Inspector General                                     Inspection Report


boxes of documents, and/or drawings piled in filing areas, empty cubicles, work
spaces, and hallways. Examples of cluttered and/or disorganized areas include:

   An employee had approximately 40 boxes of personal working files stacked
    along a back hallway. The individual stated these files are retained in case
    he needs to answer questions on past projects, however, he also stated the
    working files are rarely used. In our subsequent walkdown, we noted the
    boxes were still stacked along the same hallway. Figure 4 shows the boxes
    we noted during our initial walkdown in 2008. Figure 5 shows the same
    boxes noted during our second walkdown of the Chattanooga Office
    Complex.

                                  Figure 4               Figure 5




   Boxes belonging to the Chief Financial Officer's organization that, according
    to personnel from the same organization, had been lined up against a hallway
    for approximately three years. See Figure 6 below from our second
    walkdown of the Chattanooga Office Complex.

                                             Figure 6




Inspection 2008-11829                                                         Page 9
Office of the Inspector General                                     Inspection Report


   Cluttered workspaces such as the one shown in Figure 7 that raise questions
    about the identification, retention, and use of key records.

                                    Figure 7




We were informed by Records Liaisons that Power System Operations, River
Operations, and Fossil Engineering records had been consolidated since our
review was initiated, and we found that this resulted in records storage
improvement. Figures 8 and 9 are before and after pictures of the same area
demonstrating the new office space that was the result of this consolidation. The
records were scanned and/or consolidated into a smaller filing area along with
Power System Operations and River Operations records.

                        Figure 8                        Figure 9




                                                                             

In addition, during walkdowns of the Chattanooga Office Complex, hot plates,
commercial coffee pots, and a full-size refrigerator were noted in cubicle areas.
These items were addressed in a TVA Today article dated October 20, 2008.
Facilities Management asked employees to remove unauthorized equipment and
gadgets from workspaces for safety and energy conservation purposes. In
discussion with Facilities Management, we noted that TVA is looking at placing
kitchen areas throughout the Chattanooga Office Complex behind elevators
enabling coffee pots, toasters, and other kitchen appliances to be moved. In
addition, boxes and filing cabinets were located in hallways partially blocking
walkways. According to Facilities Management, these items are fire code
violations.


Inspection 2008-11829                                                       Page 10
Office of the Inspector General                                     Inspection Report


Figure 10 shows an illustration of the fire code violation that was noted in a
walkdown of the Chattanooga Office Complex. Figure 11 shows a full-size
refrigerator, microwave, and a hot plate that were noted during our walkdown.

                            Figure 10                  Figure 11




                                        Figure 12




Figure 12 above is an example of cluttered workspace that was noted in the
Chattanooga Office Complex. According to a TVA employee, this area is used
as an equipment library.

Personally Identifiable Information
During walkdowns of the Chattanooga Office Complex, filing cabinets containing
employee personally identifiable information were found to be unlocked on more
than one occasion. The information contained in a sample of three files included
social security numbers, employee identification numbers, a copy of passport
information, employee names, and employee addresses. According to TVA
Communications Practice 1, TVA is to follow procedures designed to protect the
personal privacy of its employees and other individuals on whom TVA maintains
personal information by ensuring that adequate safeguards are provided to
prevent misuse of personal information. Ensuring file cabinets with personally
identifiable information are locked would be among the best practices for


Inspection 2008-11829                                                       Page 11
Office of the Inspector General                                     Inspection Report


protecting personal privacy. However, it was noted on two later occasions that
these cabinets were locked.

RECOMMENDATIONS
We recommend the Vice President and Chief Information Officer, Information
Services, in conjunction with the Vice President of Facilities Management:

1. Continue current plans to replace EDMS with a new system that has more
   user-friendly search and retrieval functions.
2. Consider providing guidance on the format for retention of records, taking into
   account records retention times.
3. Implement further cleanup initiatives when feasible, including the
   identification, review, and proper disposition of unknown records and
   materials.
4. Re-emphasize the importance of safeguarding personally identifiable
   information.

Management's Response - The Vice President and Chief Information Officer,
Information Services, in conjunction with the Vice President of Facilities
Management, provided comments on a draft of this report and agreed with our
recommendations and plan to take corrective actions. Corrective actions include:

   Continuing current plans to replace EDMS with a new system that has more
    user-friendly search and retrieval functions.
   Reviewing current guidance on the format for retention of records and making
    changes where appropriate.
   EDM working with Facilities to conduct periodic cleanups as soon as the
    Office of the General Counsel gives clearance for them to proceed.
   Updating communications and training on the importance of securing printed
    and electronic PII records.
   Identifying owners of unsecured printed records and implementing controls.

Auditor's Response - We concur with TVA management's actions or planned
actions to address our recommendations.




Inspection 2008-11829                                                       Page 12
